U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION
     NOS’s Coastal Services Center Awards
          Were Not Competitively Selected
                         CFDA No. 11.473
         Audit Report No. ATL-11000-0-0001/March 2000




                 Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                          Audit Report ATL-11000-0-0001
Office of Inspector General                                                                                            March 2000

                                                   TABLE OF CONTENTS

                                                                                                                                        Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.         Information Resources and Coastal and Environmental Technology
                     Commercialization Awards Were Not Made on a Competitive Basis . . . . . . . . 6

                     A.       NOS did not develop and publish merit-based
                              evaluation criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     B.       Solicitation and review process did not comply with
                              competitive requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     C.       Noncompetitive awards lacked appropriate justification . . . . . . . . . . . . . . 8

          II.        NOS Developed Merit-Based Evaluation Criteria and Procedures for Coastal
                     Management Fellowship Host State Awards; However, Documentation of
                          Review Practices Was Inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     A.         NOS developed and published merit-based evaluation criteria . . . . . . 10

                     B.         Solicitation process obtained an adequate response . . . . . . . . . . . . . . . 12

                     C.         Documentation of review practices was inadequate . . . . . . . . . . . . . . . 12

                     D.         Coastal Management Fellowship selection process complied with
                                competitive procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          III.      NOAA Reviews of Proposed NOS Noncompetitive
                    Awards Were Not Effective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          IV.       NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
U.S. Department of Commerce                                                                  Audit Report ATL-11000-0-0001
Office of Inspector General                                                                                    March 2000

       V.     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

       VI.     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

APPENDIX I                NOAA/NOS Procedures for Review and Selection of Noncompetitive
                          Awards

APPENDIX II               NOAA/NOS Procedures for Review and Selection of Coastal
                          Management Fellowship Program Awards

APPENDIX III              NOAA Response to Draft Report
U.S. Department of Commerce                                           Audit Report ATL-11000-0-0001
Office of Inspector General                                                             March 2000

                                   EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the fiscal year 1997 criteria, procedures,
and practices for soliciting, reviewing, and selecting applications for financial assistance of the
National Oceanic and Atmospheric Administration’s National Ocean Service’s (NOS) Coastal
Services Center (CSC) located in Charleston, South Carolina. Through CSC, NOS makes
financial assistance awards in the following eight program areas: Coastal Management Services;
Training, Outreach, and Education; Integration and Development; Analysis and Characterization;
Information Resources; Coastal and Environmental Technology Commercialization; Remote
Sensing; and Coastal Management Fellowships. CSC’s financial assistance program is classified
as No.11.473 in the Catalog of Federal Domestic Assistance (CFDA). The audit was conducted
as part of a Department-wide review of Commerce’s discretionary financial assistance programs
initiated at the request of the Chairman of the Senate Commerce, Science, and Transportation
Committee.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of awards.
Collectively, these programs involve a significant portion of the Commerce Department’s budget
and operations, approximately $1 billion annually.

Through CSC, NOS provides financial assistance to universities, state and local governments, and
public nonprofit organizations to support projects aimed at developing a science-based, multi-
dimensional approach to improving environmental quality and promoting economic growth of
the nation’s coasts. During fiscal year 1997, CSC awarded $2 million in the form of seven new
grants and one renewal to an existing cooperative agreement, under three of the eight program
areas.

We found that NOS’s criteria, procedures, and practices for the solicitation, review, and
selection of applications for funding under both its (1) Information Resources program area and
(2) Coastal and Environmental Technology Commercialization program area did not comply
with statutory, departmental, and NOAA requirements. Specifically, we found that NOS:

l      Did not develop and publish merit-based evaluation criteria against which applications
       for financial assistance could be reviewed;

l      Did not comply with the Department’s and NOAA’s requirement that a notice be placed
       in the Federal Register, at least annually, announcing the availability of funding,
       soliciting award applications, and specifying the criteria and the process to be used in
       reviewing and selecting applications for funding; and

l      Did not comply with the Department’s and NOAA’s requirements that (1) all financial
       assistance awards be made on the basis of a competitive review process, unless a special


                                                 i
U.S. Department of Commerce                                         Audit Report ATL-11000-0-0001
Office of Inspector General                                                           March 2000

       waiver is obtained, and (2) the competitive review process meet minimum standards
       established by the Department.

In addition, the two awards in these areas were made noncompetitively without appropriate
documentation to support the sole source awards.

By not following competitive award procedures, for both the Information Resources and Coastal
and Environmental Technology Commercialization program areas, there is a greater potential for
NOS to make questionable or even inappropriate noncompetitive program awards in instances
where competition from other sources is available. NOS also risks forgoing the receipt of
research proposals from a broad range of eligible applicants and thus may lose opportunities to
increase the quality and effectiveness of CSC program areas.

NOS generally followed competitive processes in making six awards under the Coastal
Management Fellowship program area in fiscal year 1997. However, we found that CSC officials
failed to maintain pertinent panel members’ review forms and other evaluation documentation
needed to support their selections of host state recipients, as required by DAO 4.05b (see page
12).

We also found that the NOAA Grants Management Division did not question NOS’s lack of
competitive award procedures or the appropriateness of the noncompetitive awards (see page
12).

In its response to the draft report, NOAA stated that it generally agrees with our
recommendations and that it is reviewing all financial assistance programs to determine which
noncompetitive awards can be competed. NOAA also stated that, subsequent to the audit period,
it published program descriptions and specific evaluation and selection information for the
program areas in which it expects to make awards. In addition, NOAA agreed to require reviews
for proposed competitive and noncompetitive awards to determine their compliance with
Commerce policy.

Finally, regarding the Coastal Management Fellowship program area, NOAA stated that it is now
documenting the entire award process. NOAA’s response is provided as Appendix III to this
report.

We welcome NOAA’s commitment to ensure that its discretionary financial assistance programs
comply with departmental policy and maximize the use of competition in its grants and
cooperative agreements. We recognize that departmental policy allows for noncompetitive
awards under certain conditions and that the awards can be justified by one or more acceptable
reasons. However, we reiterate our finding that none of the fiscal year 1997 awards under the
Information Resources and Coastal and Environmental Technology Commercialization program
areas were made on a competitive basis and we believe that, absent acceptable justifications for
noncompetitive awards, a competitive process should have been used to make these awards.


                                               ii
U.S. Department of Commerce                                          Audit Report ATL-11000-0-0001
Office of Inspector General                                                            March 2000

1.     We recommend that the Assistant Administrator for Ocean Services and Coastal Zone
       Management ensure that CSC financial assistance awards are made based on a
       competitive, merit-based process, unless otherwise mandated by law or adequately
       justified, and that the award process complies with Department policies and procedures
       and includes the following four elements:

       A.      Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations, as required by DAO
               203-26, Sections 4.02a. and b., and Financial Assistance Notice No. 17, Sections
               .01 and .03;

       B.      Independent application reviews that consistently apply published program
               evaluation criteria, as required by DAO 203-26, Section 4.02h.1.;

       C.      Written justifications for award decisions that deviate from recommendations
               made by application reviewers, as required by DAO 203-26, Section 4.05b .; and,

       D.      Adequate written justifications for noncompetitive awards, as required by DAO
               203-26, Section 4.02i., which should, in the case of sole source awards, document
               appropriate market search efforts to validate the determination that there is only
               one source available to perform the anticipated award. Also, justifications for
               noncompetitive awards that are made on a basis other than sole source, e.g., to
               meet congressional intent or extend an existing award, should reflect the
               appropriate basis for the lack of competition.

2.     We recommend that the Assistant Administrator for Ocean Services and Coastal Zone
       Management ensure that all program area descriptions contained in the CFDA include
       specific criteria and other technical information relative to all CSC program areas, as
       required by OMB Circular A-89.

3.     We recommend that the Assistant Administrator for Ocean Services and Coastal Zone
       Management ensure that panel members’ review forms and other information prepared
       for the Coastal Management Fellowship program area competitive award selection
       process are adequately documented, as required by DAO 203-26, Section 4.05b.

4.     We recommend that the Chief Financial Officer/Chief Administrative Officer, as Director
       of the Office of Finance and Administration, which includes the Grants Management
       Division, require that grants officer reviews of proposed noncompetitive awards include
       procedures designed to objectively determine compliance with Department and NOAA
       competitive requirements.

Our recommendations begin on page 14.

                                               iii
U.S. Department of Commerce                                            Audit Report ATL-11000-0-0001
Office of Inspector General                                                              March 2000

                                       INTRODUCTION

The National Oceanic and Atmospheric Administration’s mission is to describe and predict
changes in the Earth’s environment and to conserve and manage wisely the nation’s coastal
resources. NOAA’s National Ocean Service’s (NOS) Coastal Services Center (CSC), located in
Charleston, South Carolina, administers a multifaceted financial assistance program, which is
classified as No. 11.473 in the (CFDA) Catalog of Federal Domestic Assistance. Through CSC,
NOS makes financial assistance awards in any of eight program areas: Coastal Management
Services; Training, Outreach, and Education; Integration and Development; Analysis and
Characterization; Information Resources; Coastal and Environmental Technology
Commercialization; Remote Sensing; and Coastal Management Fellowships. CSC’s objective is
to develop a science based, multi-dimensional approach that will allow for the maintenance of the
environment and economic well being of the nation’s coasts by linking people, information, and
technology.

In fiscal year 1997, CSC made eight awards totaling $2 million under three of the eight program
areas it administers. The awards consisted of one grant under the Information Resources
program area, one renewal of an existing cooperative agreement under the Coastal and
Environmental Technology Commercialization program area, and six grants under the Coastal
Management Fellowship program area. According to program authorization information
provided by NOAA’s Office of Legislative Affairs and published in the CFDA, the fiscal year
1997 awards were made under the authority of the Marine Protection, Research, and Sanctuaries
Act of 1972.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) the amount of federal financial
assistance that will be awarded. The use of competitive selection procedures is generally agreed
to be the most effective method of ensuring that financial assistance awards are made on the
basis of merit. One of the primary purposes of the Federal Grant and Cooperative Agreement
Act (31 U.S.C.§6301) is to encourage competition in the award of federal financial assistance to
the maximum extent practicable in order to fairly and objectively identify and fund, based on
merit, the best possible projects proposed by applicants, and thereby more effectively achieve
program objectives.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, and are still applicable, include:

l      widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;
U.S. Department of Commerce                                           Audit Report ATL-11000-0-0001
Office of Inspector General                                                             March 2000

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering assistance programs:

l      OMB Circular A-89, Federal Domestic Assistance Program Information, implements
       the Federal Program Information Act (P.L. 95-220) requiring agencies to systematically
       and periodically collect and distribute current information to the public on federal
       domestic assistance programs, which is accomplished through the semiannual publication
       of the CFDA.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and
       Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
       Organizations, requires agencies to provide the public with advance notice of their
       intended funding priorities for discretionary assistance programs unless such priorities are
       established by federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers’ Financial Integrity Act (P.L. 97-255) requiring agencies to establish written
       procedures for all programs and administrative activities, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register announcing
the availability of funding, soliciting award applications, and specifying the criteria and the


                                                2
U.S. Department of Commerce                                                                                                                               Audit Report ATL-11000-0-0001
Office of Inspector General                                                                                                                                                 March 2000

process to be used in reviewing and selecting applications for funding. In addition,
noncompetitive awards, if any, should be adequately justified in writing as part of an internal
control system as defined in OMB Circular A-123 and required by DAO 203-26, Section 4.02i.

The chart presented below depicts the basic process and controls for the solicitation, review, and
selection of financial assistance awards as set forth in DAO 203-26. The processes we reviewed
during our audit are color coded for this chart and the NOAA/NOS process charts located in
Appendices I and II.




                                           Department of Commerce Financial Assistance Awards Process
  Congress




                                     LEGISLATIVE AUTHORITY &
                                     APPROPRIATIONS REQUIREMENTS




                                                                                                                                 PREAWARD SCREENING
   Department




                                                                                                                                 * Office of General Counsel Review       FINANCIAL
                                     POLICIES &
                                                                                                                                                                          ASSISTANCE
                                     PROCEDURES                                                                                  * Office of Inspector General Review     REVIEW BOARD
                                                                                                                                   -- Limited Background Check
                                                                                                                                   -- Credit Review
                                                                                                                                   -- Outstanding Audit Issues




                                                        SOLICITATION
                                                                               REVIEW
   Bureau/Program




                                                                                                       SELECTION                             PREAWARD SCREENING
                                     POLICIES &         Public announcement
                                     PROCEDURES         and notification of    * Independent Review                                          * Outstanding Accounts
                                                                                                       *   Quantitative Scores                                            SIGNED BY GRANT
                                                        financial assistance      Panel(s)             *   Public Policy Considerations        Receivable                 OFFICER
                                                        opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                  * Suspensions & Debarments   OR DESIGNATED
                                                        Federal Register,      * Numeric Ranking       *   Decision Fully Justified and      * Award Prepared Properly    OFFICIAL
                                                        Commerce Business                                  Documented
                                                        Daily, Internet Web
                                                        Sites)
   Financial Assistance Applicants




                                                                                                                                                                             AWARD
                                                       PROPOSAL




                                                                                                              3
U.S. Department of Commerce                                          Audit Report ATL-11000-0-0001
Office of Inspector General                                                            March 2000

                                   PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG review and report on the criteria developed, either statutorily or administratively, to guide
agency officials in making discretionary spending decisions, and on the extent to which the
criteria are appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (on-going). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation, provided by
Department officials, for each Commerce financial assistance program and classified each
program as either a “full discretion” program or a “limited discretion” program, based on the
extent to which the legislation limits the agency’s authority to independently determine the
recipients and funding levels of the awards made under the program. Finally, we examined the
fiscal year 1997 appropriations legislation to identify all legislatively mandated awards.

During the second phase of our review, we are conducting individual audits of the application
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the program areas administered by the Costal Services Center. We
are evaluating the adequacy of each program’s established award criteria and procedures for
evaluating individual applications. For those programs with procedures deemed to be adequate,
we are ascertaining whether they were followed in making awards in fiscal year 1997. For those
programs with procedures considered to be inadequate or lacking, we are reviewing how the
fiscal year 1997 award decisions were made. Finally, we are examining any legislatively
mandated projects identified for each program and determining their significance and impact on
fiscal year 1997 award decisions. We plan to issue individual reports, with any appropriate
recommendations, on each program, followed by a capping report summarizing the results of the
individual audits and providing recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.




                                               4
U.S. Department of Commerce                                          Audit Report ATL-11000-0-0001
Office of Inspector General                                                            March 2000

This performance audit focused on all new awards and renewals made during fiscal year 1997
by CSC. Specifically, we:

l      Reviewed the program authorization information provided by NOAA’s Office of
       Legislative Affairs and information on the CSC published in the CFDA to identify
       criteria for funding decisions.

l      Reviewed NOAA/NOS policies and procedures for soliciting, reviewing and selecting
       applications for funding (see Appendices I and II for flowcharts of processes). We also
       reviewed NOAA’s Grants and Cooperative Agreements Manual as it applied to the
       solicitation, review, and selection process and assessed whether it was adequate and in
       accordance with DAO 203-26, Department of Commerce Grants Administration, and
       Office of Federal Assistance Financial Assistance Notice No. 17, Department of
       Commerce Guidelines for the Preparation of Federal Register Notices Announcing the
       Availability of Financial Assistance Funds – Requests for Applications.

l      Compared the NOAA/NOS procedures with their award practices for fiscal year 1997 to
       determine if the process contained adequate internal controls to provide for competitive,
       merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       Departmental and NOAA policies and procedures were followed.

l      Interviewed NOAA/NOS program office officials concerning NOAA/NOS’s solicitation,
       review, and selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects for CSC. None were found.

We did not rely on computer-based data supplied by NOAA and the Department’s Office of
Executive Assistance Management (OEAM) as a basis for our audit findings and
recommendations. Consequently, we did not conduct tests of either the reliability of the data or
the controls over the computer-based system that produced the data.

We performed the audit fieldwork at CSC’s offices in Charleston, South Carolina, during May
1998. We conducted the audit in accordance with generally accepted government auditing
standards, and under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                               5
U.S. Department of Commerce                                         Audit Report ATL-11000-0-0001
Office of Inspector General                                                           March 2000

                              FINDINGS AND RECOMMENDATIONS

We found that NOS’s criteria, procedures, and practices for the solicitation, review, and
selection of applications for awards under its Information Resources and Coastal and
Environmental Technology Commercialization program areas did not comply with statutory,
departmental, and NOAA requirements and were not adequate to guide agency officials in
making merit-based discretionary funding decisions. Specifically, CSC made a new award
under the Information Resources program area and a renewal award under the Coastal and
Environmental Technology Commercialization program area noncompetitively in response to
unsolicited proposals, did not announce these program areas in the Federal Register, and did
not develop and publish merit-based evaluation criteria against which applications for funding
could be reviewed.

In addition, the justifications for the new and renewal awards made in fiscal year 1997 did not
reflect the appropriate basis for the lack of competition. We also found that reviews performed
by the NOAA grants office of the proposed awards did not question NOS’s lack of competitive
award procedures or the adequacy of the noncompetitive award justifications. As a result of
these deficiencies, CSC could not provide reasonable assurance that noncompetitive awards
made under the Information Resources and Coastal and Environmental Technology
Commercialization program areas were merit-based and represented the most effective means of
achieving program objectives.

The six awards made under the Coastal Management Fellowship program area generally
appeared to be made on a competitive basis; however, CSC officials failed to maintain proposal
evaluation forms for two of the seven members of the review panel.

I.     Information Resources and Coastal and Environmental Technology
       Commercialization Awards Were Not Made on a Competitive Basis

NOS’s Information Resources and Coastal and Environmental Technology Commercialization
program area awards were not made on a competitive basis, as encouraged by federal laws and
regulations and Department and NOAA policies and procedures. The new award and the
renewal award made under these program areas were made noncompetitively in response to
unsolicited proposals. Specifically, we found that NOS, in administering the Information
Resources and Coastal and Environmental Technology Commercialization program areas:

l      Did not develop and publish merit-based evaluation criteria against which applications
       for financial assistance could be reviewed;

l      Did not comply with the Department’s and NOAA’s requirement that a notice be placed
       in the Federal Register, at least annually, announcing the availability of funding,
       soliciting award applications, and specifying the criteria and the process to be used in
       reviewing and selecting applications for funding; and



                                               6
U.S. Department of Commerce                                           Audit Report ATL-11000-0-0001
Office of Inspector General                                                             March 2000

l      Did not comply with the Department’s and NOAA’s requirements that (1) all financial
       assistance awards be made on the basis of a competitive review process, unless a special
       waiver is obtained, and (2) the competitive review process meet minimum standards
       established by the Department.

A.    NOS did not develop and publish
      merit-based evaluation criteria

The NOAA Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4.,
requires that applications for financial assistance be reviewed by a panel of independent
reviewers in accordance with published criteria. The manual states that the criteria used for
evaluating applications must be published as part of the request for applications and prohibits
scoring against unpublished criteria. However, NOS did not develop and publish merit-based
evaluation criteria, as required by DAO 203-26, Sections 4.02a. and b. and Financial Assistance
Notice No. 17, Sections .01 and .03, against which applications for financial assistance could be
reviewed for the Information Resources and Coastal and Environmental Technology
Commercialization program areas.

In particular, the agency did not place a notice in the Federal Register announcing the
availability of funding, soliciting competing applications, and specifying the criteria and the
process to be used in reviewing and selecting applications for funding under the Information
Resources and Coastal and Environmental Technology Commercialization program areas for
fiscal year 1997. Moreover, the CFDA descriptions for program areas administered by CSC are
incomplete. OMB Circular A-89, Federal Domestic Program Information, implements the
Federal Program Information Act (P.L. 95-220) requiring agencies to systematically and
periodically collect and distribute current information to the public on federal domestic
assistance programs, which is accomplished through the semiannual publication of the CFDA.
However, the CFDA did not publish program area summaries and, therefore, did not cite specific
evaluation criteria for CSC program areas eligible for awards during fiscal year 1997. The
CFDA simply states that applications are evaluated technically and administratively taking into
consideration scientific merit and relevance to NOAA goals and objectives. In order to be
adequate to facilitate a merit-based evaluation process, criteria used to evaluate applications for
federal financial assistance should not be general in nature, but as specific as possible with
weights assigned to each criterion.

B.    Solicitation and review process did not comply
      with competitive requirements

DAO 203-26, Section 4.02b., requires Commerce bureaus to publish an annual notice in the
Federal Register announcing the availability of funding, soliciting competing applications for
funding, and specifying the criteria and the process to be used in reviewing and selecting
applications for funding. It also encourages the bureaus to publish notices in other widely
distributed publications, such as the Commerce Business Daily, to ensure widespread
solicitation of applications.


                                                7
U.S. Department of Commerce                                             Audit Report ATL-11000-0-0001
Office of Inspector General                                                               March 2000

Moreover, NOAA’s Grants and Cooperative Agreements Policy Manual, Chapter 1, Section
A.4., states that it is NOAA’s policy to seek maximum competition for its discretionary grants
and cooperative agreements. To accomplish this, the manual states that when appropriate,
program offices should publish requests for applications in the Federal Register or otherwise
solicit applications from all eligible organizations.

In addition, DAO 203-26, Section 4.02a., requires the establishment of selection criteria for use
in evaluating applications submitted for new awards. Section 4.02h. requires awards be made
on the basis of competitive review, and Section 4.02h.1.(e) requires the use of the selection
criteria in evaluating individual applications. Unless a waiver of competitive review
requirements has been obtained, awards must be made on the basis of competitive review.

Despite the Department and NOAA policies, NOS did not announce CSC’s Information
Resources and Coastal and Environmental Technology Commercialization program areas in the
Federal Register or the Commerce Business Daily, and did not establish competitive award
selection criteria.

In the absence of an annual Federal Register notice announcing the CSC programs’ existence
and availability, NOS still could have placed preaward notices in the Federal Register
announcing its intent to fund specific program area projects and requesting proposals or inviting
inquiries from interested organizations. However, NOS did not publish individual preaward
notices in the Federal Register for either of these two program areas funded during fiscal year
1997.

C.    Noncompetitive awards lacked appropriate justification

In fiscal year 1997, NOS awarded, through CSC, a new grant award to the University of Rhode
Island, in the amount of $1.3 million, and a renewal of an existing award to the University of
Texas in the amount of $240,000. In both cases, the awards were made noncompetitively on the
basis of unsolicited proposals submitted for NOS funding consideration. The written justification
for each of the new awards stated that the proposed recipient possessed unique capabilities that
made it the only organization qualified to do the work.

NOS awarded grant No. NA76OC0512 to the University of Rhode Island in September 1997.
The grant was for a two-year period and required no matching share. The award’s purpose was
to create a coastal data and information resource center at the university. The written
noncompetitive justification characterized the award as sole source, stating that the university
was the only entity with the necessary capabilities to implement and establish a national coastal
data center to provide quick access to coastal information from around the nation. However, the
justification was inappropriate because it inadequately supported the sole source rationale and
failed to attribute the lack of competition to an effort to meet congressional intent. Instead, it was
prepared to support the award to the university as a sole source award.


                                                  8
U.S. Department of Commerce                                               Audit Report ATL-11000-0-0001
Office of Inspector General                                                                 March 2000

NOS also made a fiscal year 1997 award to the University of Texas (No. NA57OC0565) to renew
an existing cooperative agreement awarded to the university during fiscal year 1995, the purpose
of which was to establish a coastal environmental technology commercialization center to
facilitate the commercialization of innovative technologies for sustaining healthy coastal
ecosystems and economic prosperity. NOS amended the original award to add additional funds
of $240,000 and extend the performance period through May 31, 1998. The written
noncompetitive justification characterized the amendment as a sole source award indicating that
the university had unique capabilities and had been actively involved in research and teaching in
the areas of technology management since 1977. However, the noncompetitive justification was
inappropriate because it did not reflect the actual basis for the lack of competition, i.e., that it was
an extension of an existing award.

Unsolicited proposals are applications for financial assistance that are not submitted in response
to a formal solicitation notice published in the Federal Register. Because unsolicited proposals
are a means by which unique or innovative ideas can be made available to accomplish specific
projects, scientific organizations like NOAA and NOS encourage their submission. DAO 203-
26, Section 4.02i., allows the receipt of unsolicited proposals, but states that no unsolicited
proposal may be funded outside the competitive process if that proposal addresses subject areas
that fall within the program goals of a competitive program. In addition, the receipt of a
technically acceptable unsolicited proposal does not, in itself, justify a noncompetitive award.
DAO 203-26, Section 4.02i., also states that the decision to fund an unsolicited proposal must
be fully justified and included in the official grant file.

Because NOS did not comply with the Department’s requirement that a notice be published in
the Federal Register soliciting applications for fiscal year 1997 awards under the Information
Resources and Coastal and Environmental Technology Commercialization program areas, it
lacked support for its conclusions that the organizations that submitted unsolicited proposals
were the only ones that could perform the work. Instead, the justifications contained statements
and conclusions by program office officials based on their personal knowledge. A belief that an
organization possesses unique qualifications should be verified through a competitive review
process that includes widespread solicitation of eligible applicants through announcement in the
Federal Register and other means.

II.    NOS Developed Merit-Based Evaluation Criteria and Procedures for Coastal
       Management Fellowship Host State Awards; However, Documentation of Review
       Practices Was Inadequate

The Coastal Management Fellowship program awards each host state recipient $64,000 in
financial assistance to fund a 24-month fellowship to provide professional on-the-job education
and training opportunities for post-graduate students in coastal resource management and policy.
The host state is required to contribute a matching share of $12,000 during the second year of the
project for a total cost of each fellowship of $76,000. The host state project selection process is
completed before the fellow selection process takes place in order to give the Sea Grant directors

                                                   9
U.S. Department of Commerce                                            Audit Report ATL-11000-0-0001
Office of Inspector General                                                              March 2000

of the host states and prospective fellows better guidance as to the nature of the projects for
which they will be competing. NOS/CSC administers and participates in the separate selection
of the fellowship candidates, who are nominated by the Sea Grant directors of the eligible states
and competitively selected. However, because the subsequent selection of the fellows does not
result in a NOAA/NOS financial assistance award it was outside the scope of our audit.

NOS established merit-based criteria and procedures for soliciting, reviewing, and selecting
applications for funding under the Coastal Management Fellowship program area that were
designed to result in competitive, merit-based awards. However, during fiscal year 1997, NOS
failed to maintain adequate documentation for the review panel’s evaluation of host state
applications.

A.     NOS developed and published merit-based evaluation criteria

DAO 203-26, Section 4.02b., requires Commerce bureaus to publish an annual notice in the
Federal Register announcing the availability of funding, soliciting competing applications for
funding, and specifying the criteria and the process to be used in reviewing and selecting
applications for funding. It also encourages the bureaus to publish notices in other widely
distributed publications, such as the Commerce Business Daily, to ensure widespread
solicitation of applications. In addition, the NOAA Grants and Cooperative Agreements Policy
Manual, Chapter 1, Section A.4., requires that applications for financial assistance be reviewed
by a panel of independent reviewers in accordance with the published criteria. The manual
prohibits scoring of applications against unpublished criteria. NOS developed merit-based
technical and public policy criteria that were consistent with the objectives of the Coastal
Management Fellowship program area for use in evaluating applications to serve as host states.
NOS did not publish the criteria in the Federal Register; instead, the criteria were published in a
December 1996 solicitation notice mailed to all state coastal management agencies for states
with federally approved coastal zone management programs and states developing such
programs. This method of solicitation technically does not comply with DAO 203-26; however,
it achieves the result intended by the DAO by providing notice to all eligible participants. It is a
method also allowed by OMB Circular A-102, Section 6b.

NOS included the December 1996 CSC document Coastal Management Fellowship Project
Selection in the solicitation notice mailed to state coastal management agencies. The document
described the project application requirements and listed the project evaluation criteria. The
solicitation stated that CSC was seeking project proposals from state coastal zone management
programs for fellowship projects in natural coastal hazards planning, mitigation, and recovery;
habitat evaluation or restoration; and mitigation of habitat impacts caused by a major project or
type of projects. It stated that projects addressing at least two of the following project areas
would be considered:

       (1)     Develop and apply a coastal resource management technique or methodology:



                                                10
U.S. Department of Commerce                                               Audit Report ATL-11000-0-0001
Office of Inspector General                                                                 March 2000

        (2)     Design and author state and/or local regulations or policies to address a specific
                issue;

        (3)     Produce documentation for transfer to and application by others;

        (4)     Develop and implement an information management system;

        (5)     Resolve a specific management problem or issue relating to natural coastal
                hazards or habitat evaluation, mitigation and restoration; and,

        (6)     Improve public awareness (industry and/or general public) of a coastal hazard or
                habitat evaluation, mitigation, or restoration issue.

The solicitation notice listed the following criteria which were to be used by the panel to
evaluate and rank applications:

        (1)     Addresses two or more of the project areas with focus on problem solving (10
                points);

        (2)     Severity of the problem/immediacy of the need (10 points);

        (3)     Technical merit (25 points);

        (4)     Degree to which the project advances or integrates existing activities (10 points);

        (5)     Capability of the host to mentor and provide an educational experience
                (25 points);

        (6)     In-kind support services such as office space with a computer, and telephone and
                fax access (20 points); and,

        (7)     Project proposals should include a description of the source of the $12,000
                fellowship match cost-sharing for the project’s second year. Projects that show
                cost sharing during both years will be given additional consideration as part of
                the project selection criteria.

Based on our review, we concluded that the criteria for evaluating proposals under the Coastal
Management Fellowship program area were designed to result in competitive merit-based
funding decisions. Although NOS did not technically comply with the Department’s
requirement that the criteria be published in the Federal Register as part of the required annual
notice, its direct mailing of a solicitation notice to all eligible states was a practical method that
achieved the same results.


                                                   11
U.S. Department of Commerce                                           Audit Report ATL-11000-0-0001
Office of Inspector General                                                             March 2000

B.      Solicitation process obtained an adequate response

As discussed in Section B on page 8 of this report, DAO 203-26 requires public announcement
of funding availability and a description of the related review and selection process. In addition,
NOAA’s Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4., states
that it is NOAA’s policy to seek maximum competition for its discretionary financial assistance
awards.

NOS received applications for fiscal year 1997 awards from 10 of the 29 eligible states. As
discussed above, NOS notified all eligible agencies of the project proposal application process
by a direct mailing in December 1996. Only states with federally approved coastal zone
management programs, and states developing such programs, were eligible to submit an
application.

C.     Documentation of review practices was inadequate

As discussed beginning on page 10 of this report, NOS established merit-based criteria and
procedures for reviewing and selecting applications for funding under the Coastal Management
Fellowship program area. However, NOS’s application review procedures were not adequately
documented, as required by DAO 203-26, Section 4.05b.

NOS officials convened a project selection panel to review applications and rank the applicants.
 The seven member panel consisted of three technical evaluators from CSC and four general-
purpose evaluators from the NOAA Sea Grants and Ocean and Coastal Resource Management
divisions and an organization of coastal states. NOS officials provided a summary score sheet
showing that panel members reviewed the 10 proposals received using the evaluation criteria
discussed on pages 11 and 12. The panel members combined individual scores to arrive at an
average panel score for each application and recommended to the selecting official that the six
applications with the highest scores be selected for funding. The panel’s average scores for the
six recommended applications ranged from 65.14 to 69.86, while the four applicants not
recommended scored in the range of 58.29 to 62.43. However, NOS officials were unable to
locate two of the panel members’ project proposal evaluation forms. Consequently, we were
only able to verify the accuracy of the rankings and overall scores provided by two of the four
general-purpose evaluators.

D.     Coastal Management Fellowship selection process
       complied with competitive procedures

The CSC Coastal Management Fellowship Program Coordinator followed the review panel’s
recommendations in selecting applications for fiscal year 1997 funding. NOS officials decided
to combine the administration for two projects, which decreased the number of Coastal
Management Fellowship program area awards from 1997 applications from six to five. In
addition, a fiscal year 1997 award was made to Michigan based on the fiscal year 1996

                                                12
U.S. Department of Commerce                                            Audit Report ATL-11000-0-0001
Office of Inspector General                                                              March 2000

competition. Michigan had been selected as a host state during the fiscal year 1996 competition,
but none of the individuals selected as fellowship finalists were interested in that state’s project.
NOS officials stated that they agreed at the time to allow Michigan to have the opportunity to be
a host state the next year. The fiscal year 1997 award to Michigan was funded with carryover
funding from fiscal year 1996.

III.   NOAA Reviews of Proposed NOS Noncompetitive
       Awards Were Not Effective

Reviews performed by the NOAA Grants Management Division (GMD) of the two proposed
noncompetitive awards under the Information Resources and Coastal and Environmental
Technology Commercialization program areas did not question NOS’s lack of competitive
award procedures or the validity of the noncompetitive award justifications. The Assistant
Administrator for NOS forwarded, as required, the program office’s justification and related
documents for the proposed noncompetitive awards to the grants office for review and
approval. However, GMD’s review of the proposed awards did not ensure the program office’s
compliance with applicable Department and NOAA competitive requirements.

DAO 203-26, Section 4.01., requires that each bureau establish a central liaison to ensure that its
programs comply with federal, departmental and organization grant requirements and to review
grant documents for compliance. The Grants Management Division within NOAA’s Office of
Finance and Administration fulfills that responsibility for NOAA.

The grant files do not indicate whether the GMD questioned why the NOS program office did
not prepare and submit the required annual CSC Federal Register program announcement. The
files also do not show whether the grants office determined if the noncompetitive justifications
were factually based or if the program office had made any attempts to identify other qualified
sources before submitting the noncompetitive awards. Grants Management Division Personnel
stated that they relied on and accepted as valid the technical descriptions of perceived unique
capabilities presented in the program office’s award justifications. Grants Management Division
personnel limit their reviews of the justifications to determining whether they addressed one or
more of the acceptable reasons for a noncompetitive award, but do not attempt to verify the
information. Therefore, we believe the reviews were not effective in ensuring the program
office’s compliance with Department and NOAA competitive policies.

IV.    NOAA Response

In its response to the draft report, NOAA stated that it generally agrees with our
recommendations and that it has already begun a review of all financial assistance programs to
determine which noncompetitive awards can be competed. NOAA anticipates the review will
conclude in fiscal year 2000. NOAA also stated that, subsequent to the audit period, it published


                                                 13
U.S. Department of Commerce                                          Audit Report ATL-11000-0-0001
Office of Inspector General                                                            March 2000

program descriptions and specific evaluation and selection information for the program areas in
which it expects to make awards. NOAA agreed with the draft report recommendation that
proposed noncompetitive awards be effectively reviewed and stated that it will require internal
reviews for proposed competitive and noncompetitive awards to determine their compliance with
policy.

NOAA stated that it is now documenting the entire award process in the Coastal Management
Fellowship program area. However, NOAA disagreed with the draft report’s finding regarding
the fellowship project award to Michigan. It contends that the fiscal year 1997 award was funded
with fiscal year 1996 carryover funds and therefore was not made outside of fiscal year 1997
competitive procedures. NOAA submitted evidence to support its contention. NOAA’s
response is included as Appendix III to this report.

V.     OIG Comments

We welcome NOAA’s commitment to ensure that its discretionary financial assistance programs
comply with departmental policy and maximize the use of competition in its grants and
cooperative agreements. We also agree with NOAA’s explanation regarding the fellowship host
state award to Michigan and have removed that finding from the final report.

We recognize that departmental policy allows for noncompetitive awards under certain
conditions and that the awards can be justified by one or more acceptable reasons. However, we
reiterate our finding that none of the fiscal year 1997 awards under the Information Resources
and Coastal and Environmental Technology Commercialization Awards were made on a
competitive basis and we believe that, absent acceptable justifications for noncompetitive awards,
a competitive process should have been used to make these awards.

VI.    Recommendations

1.     We recommend that the Assistant Administrator for Ocean Services and Coastal Zone
       Management ensure that CSC financial assistance awards are made based on a
       competitive, merit-based process, unless otherwise mandated by law or adequately
       justified, and that the award process complies with Department policies and procedures
       and includes the following four elements:

       A.      Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations, as required by DAO
               203-26, Sections 4.02a. and b., and Financial Assistance Notice No. 17, Sections
               .01 and .03;

       B.      Independent application reviews that consistently apply published program
               evaluation criteria, as required by DAO 203-26, Section 4.02h.1.;


                                               14
U.S. Department of Commerce                                          Audit Report ATL-11000-0-0001
Office of Inspector General                                                            March 2000


       C.      Written justifications for award decisions that deviate from recommendations
               made by application reviewers, as required by DAO 203-26, Section 4.05b .; and,

       D.      Adequate written justifications for noncompetitive awards, as required by DAO
               203-26, Section 4.02i., which should, in the case of sole source awards, document
               appropriate market search efforts to validate the determination that there is only
               one source available to perform the anticipated award. Also, justifications for
               noncompetitive awards that are made on a basis other than sole source, e.g., to
               meet congressional intent or extend an existing award, should reflect the
               appropriate basis for the lack of competition.

2.     We recommend that the Assistant Administrator for Ocean Services and Coastal Zone
       Management ensure that all program area descriptions contained in the CFDA include
       specific criteria and other technical information relative to all CSC program areas, as
       required by OMB Circular A-89.

3.     We recommend that the Assistant Administrator for Ocean Services and Coastal Zone
       Management ensure that panel members’ review forms and other information prepared
       for the Coastal Management Fellowship program area competitive award selection
       process are adequately documented, as required by DAO 203-26, Section 4.05b.

4.     We recommend that the Chief Financial Officer/Chief Administrative Officer, as Director
       of the Office of Finance and Administration, which includes the Grants Management
       Division, require that grants officer reviews of proposed noncompetitive awards include
       procedures designed to objectively determine compliance with Department and NOAA
       competitive requirements.




                                               15
U.S. Department of Commerce                                      Audit Report ATL-11000-0-0001
Office of Inspector General                                                        March 2000

                                                                                          APPENDIX I


       NOAA/NOS Procedures for Review and Selection of Noncompetitive Awards




                                 Unsolicited application for
                                 award received by NOS
                                 Staff




                                Program staff evaluates
                                application technically and
                                administratively primarily for
                                scientific merit an
                                drelevance to NOAA goals
                                and objectives




                                   Noncompetitive award
                                   justification and other
                                   documents prepared
                                   by Coastal Services
                                   Center




                              Assistant Administrator, Ocean
                              Services and Coastal Zone
                              Management, approves
                              justification and other
                              documents and sends to
                              NOAA's Grants Management
                              Division




                                                                   Solicitation Process

                                Justification and other grant
                                documents reviewed by
                                NOAA's Grants                       Review Process
                                Management Division


                                                                    Selection Process



                                     Sent to Department's
                                 Office of General Counsel
                                           for approval
U.S. Department of Commerce                                    Audit Report ATL-11000-0-0001
Office of Inspector General                                                      March 2000

                                                                           APPENDIX II

                 NOAA/NOS Procedures for Review and Selection of Coastal
                       Management Fellowship Program Awards




                                NOS officials send a CMFP
                                announcement to all eligible
                                coastal state management
                                agencies to host the CMFP




                                State agencies submit
                                proposals to CSC for review
                                by an independent panel
                                review team




                                Independent panel review
                                team selects the top seven
                                proposals




                                CSC's Program Coordinator
                                provides final approval of
                                the states selected by the
                                panel review team to host
                                the CMFP




                                Complete application
                                package is submitted to
                                NOAA's Grants
                                Management Division for
                                review and approval




                                     Sent to Department's
                                 Office of General Counsel
                                           for approval
